             -- - .     .   -   NATIONAL SCIENCE FOU?QATIOIV
                                   WASHINGTON, D,C. 20550




     O f f i c e of
 Inspector G e n e r a l




  SUBJECT: ~ l l e ~ a t i oon        m

          TO:         Case No. I94020003               . .

                       we received an anonymous
                   y an NSF grantee, According to
                         at the University of                 Dr.
                        violent and t h r e a t e n ! ward
                             and was possibly involved with drugs
                                      expedition in
       is the co-Principal Investigator (PI) on m a n -
                                    , is the PI on the grant; the
two travel together an               duct archaeological research
under the grant.
        terviewed the NSF program officer on the grant,
            Dr.        stated that he was unaware of any
       t m e cite-      the alleqation.     He also stated that he
 frequ&tly    is in contact with several other members of the (close-
 knit) archaeological community in             none of whom had ever
 mentioned to hin~ any
 affirmed that to the best of his knowledge,
-enjoy         excellent personal and
 We also examined account summaries of the
 Expenditures appeared to be within agreed budg
 irregularities were uncovered.
 As we found no evidence to substantiate the allegations of violent
 and destructive behavior and drug use, and due to limited
 investigative resources, further investigation of the allegations
 is not warranted at this time,
 This case is closed.
